CERTIFICATE OF COMPLIANCE
I hereby certify that this brief has been prepared using
proportionately double- spaced 12 point Century Schoolbook typeface.
According to the “Word Count” feature in my Microsoft Word for Windows
Software, this brief contains 4221 words exclusive of the tables, certificates
and cover page.
I declare under the penalty of perjury that this Certificate of
Compliance is true and correct and that this declaration was executed on
September 26, 2020.
Sanjay Bhardwaj
In Pro Per
By-‘

SANJAY BHARDWAJ

PETITION FOR WRIT OF CERTIORARI

23

